No. 20-5517

In the Supreme Court of the United States
SCOTTY RAY GARDNER,
Petitioner,
v.
STATE OF ARKANSAS,
Respondent.
CERTIFICATE OF SERVICE
I, Michael A. Cantrell, counsel for Respondent, State of Arkansas, hereby certify
that on this day, September 8, 2020, I caused one copy of Respondent’s Motion for
Extension of Time to be served by email on the following counsel:
Teri Lisa Chambers
Arkansas Public Defender Commission
101 East Capitol Avenue, Suite 201
Little Rock, AR 72201
Teri.Chambers@arkansas.gov
Counsel for Petitioner
Pursuant to this Court’s April 15, 2020 Order relating to COVID-19, the parties
have agreed to electronic service. I further certify that all parties required to be
served have been served

1

/S/ MICHAEL A. CANTRELL
MICHAEL A. CANTRELL
Assistant Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-2007
Michael.Cantrell@arkansasag.gov

2

